February 20, 2007

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUSAN M. PLONKEY
VICE PRESIDENT, CUSTOMER SERVICE

KATHY AINSWORTH
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT:      Audit Report – Fiscal Year 2006 Financial Installation Audit – Post Offices,
              Stations, and Branches (Report Number FF-AR-07-094)

This report presents the results of our financial installation audit of post offices, stations,
and branches for fiscal year (FY) 2006 (Project Number 06BD001FF000, formerly
Project Number 06XD001FF000). We conducted this work in support of the audit of the
U.S. Postal Service’s financial statements.

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records and, generally, the internal controls we examined
were in place and effective. However, in this report we discuss systemic issues related
to cash and stamp accountability, money orders, safeguarding of assets, excess stock,
employee items, and master trust accounts.

We made recommendations to district management addressing the findings at each
installation. District management’s comments were responsive to our findings and
recommendations and the actions taken or planned should correct the issues identified
at these installations.

In this report, we recommended the Vice President, Controller, in conjunction with the
Vice President, Customer Service, modify Postal Service policy to establish a
requirement to reconcile master trust accounts to the balances in the Accounting Data
Mart (ADM) at non-PostalOne! offices. Management agreed with the recommendation
and stated they will clarify the customer trust accounts reconciliation policy to indicate
that post offices (PostalOne! and non-PostalOne!) are required to reconcile trust
accounts balances from the PostalOne! System or manually maintain records with the
balances in the ADM. The policy, which includes frequency of the reconciliation, will be
incorporated in the new Field Accounting Procedures scheduled for publication in fiscal
year 2007. Management’s comments and our evaluation of these comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact
Kevin Ellenberger, Director, Field Financial – East, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: William P. Galligan
    H. Glen Walker
    E. Lynn Smith
    Frederick J. Hintenach
    Stephen J. Nickerson
    Pritha N. Mehra
    Deborah A. Kendall
Fiscal Year 2006 Financial Installation Audit –                            FF-AR-07-094
 Post Offices, Stations, and Branches


                                      TABLE OF CONTENTS

 Executive Summary                                                                   i

 Part I

 Introduction                                                                       1

     Background                                                                     1
     Objectives, Scope, and Methodology                                             1
     Prior Audit Coverage                                                           2

 Part II

 Audit Results                                                                      3

     Increased Compliance is Needed With Procedures for Stamps, Cash,               3
       and Money Orders
     Employee Items and Master Trust Accounts Needed Additional                     5
       Monitoring
     Audit Comment                                                                  5
     Recommendation                                                                 6
     Management’s Comments                                                          6
     Evaluation of Management’s Comments                                            6

 Appendix A. Post Offices, Stations, and Branches Audited and                       7
             Reports Issued Nationwide

 Appendix B. Findings Reported for the 108 Statistically Selected Post             10
             Offices, Stations, and Branches Audited Nationwide

 Appendix C. Sampling Methodology                                                  13

 Appendix D. Summary of Accountability Examinations for the 108 Post               14
             Statistically Selected Post Offices, Stations, and Branches
             Audited Nationwide

 Appendix E. Sites Where Internal Controls Were Not In Place and                   15
             Effective

 Appendix F. Management’s Comments                                                 16
Fiscal Year 2006 Financial Installation Audit –                                        FF-AR-07-094
 Post Offices, Stations, and Branches


                                     EXECUTIVE SUMMARY
 Introduction                     This report summarizes the results of our audits of 112 post
                                  offices, stations, and branches for fiscal year (FY) 2006.
                                  We conducted our audits pursuant to the Postal
                                  Reorganization Act of 1970, which requires annual audits of
                                  the U.S. Postal Service’s financial statements. The audits
                                  at each of the post offices, stations, and branches were
                                  unannounced.

                                  The overall objectives were to determine whether financial
                                  transactions of field operations were reasonably and fairly
                                  presented in the accounting records and whether internal
                                  controls were in place and effective.

 Results in Brief                 Based on the items we reviewed, financial transactions
                                  were reasonably and fairly presented in the accounting
                                  records and, generally, the internal controls we examined
                                  were in place and effective. However, we identified internal
                                  control and compliance issues that were not material to the
                                  financial statements and did not affect the overall adequacy
                                  of internal controls necessary for a financial statement audit.
                                  Specifically, units did not always comply with stamp, cash,
                                  and money order procedures. We identified systemic
                                  issues related to accountability examinations, xxxxxxx and
                                  xxxxxxxxxxxxxxxxx, safeguarding of assets, and excess
                                  stock. Additionally, units did not always monitor employee
                                  items and master trust accounts.

 Summary of                       We made recommendations to district management
 Recommendations                  addressing the findings at each installation. In this report,
                                  we recommended the Vice President, Controller, in
                                  conjunction with the Vice President, Customer Service,
                                  modify Postal Service policy to establish a requirement to
                                  reconcile master trust accounts to the balances in the
                                  Accounting Data Mart at non-PostalOne! offices.

 Summary of                       Management agreed with the recommendation and stated
 Management’s                     they will clarify the customer trust accounts reconciliation
 Comments                         policy to indicate that post offices (PostalOne! and non-
                                  PostalOne!) are required to reconcile trust accounts
                                  balances from the PostalOne! System or manually maintain
                                  records with the balances in the Accounting Data Mart. The
                                  policy, which includes frequency of the reconciliation, will be



                                                    i
Fiscal Year 2006 Financial Installation Audit –                                   FF-AR-07-094
 Post Offices, Stations, and Branches


                                  incorporated in the new Field Accounting Procedures
                                  scheduled for publication in FY 2007.

 Overall Evaluation of            Management’s comments were responsive to our findings
 Management’s                     and recommendation.
 Comments




                                                  ii
Fiscal Year 2006 Financial Installation Audit –                                         FF-AR-07-094
 Post Offices, Stations, and Branches


                                           INTRODUCTION
 Background                       Beginning with fiscal year (FY) 2001, the U.S. Postal
                                  Service Office of Inspector General (OIG) assumed
                                  responsibility from the Postal Inspection Service for
                                  conducting financial field audits at three levels of financial
                                  installations: revenue-generating units, which include post
                                  offices, contract postal units, and self-service and
                                  automated postal centers; business mail entry units; and
                                  stamp distribution offices. We conduct these audits in
                                  support of the overall audit of the U.S. Postal Service’s
                                  financial statements.

                                  Post offices are the initial level where the Postal Service
                                  recognizes revenue from operations and includes main
                                  offices, stations, and branches. The postmasters or
                                  installation heads are responsible for collecting all receipts
                                  to which the offices are entitled, accounting for all funds
                                  entrusted to them, and ensuring the offices meet all
                                  accounting objectives. Financial activities at these
                                  installations include, but are not limited to: post office box
                                  and caller services, money orders, business reply and
                                  postage due mail, and postage sales.

                                  Handbook F-1, Post Office Accounting Procedures,
                                  November 1996 (updated with Postal Bulletin revisions
                                  through June 9, 2005), and the Postmaster/Field Guide,
                                  Version 5.0, provide the procedures postmasters and other
                                  installation heads must follow to meet the financial
                                  responsibilities of the installation. Management suspended
                                  updates to Handbook F-1 on August 18, 2005, and plans to
                                  issue a revised handbook in FY 2007.

 Objectives, Scope,               Our overall objectives were to determine whether financial
 and Methodology                  transactions of field operations were reasonably and fairly
                                  presented in the accounting records and whether internal
                                  controls were in place and effective.

                                  To accomplish these objectives, we conducted
                                  unannounced audit fieldwork from November 2005 through
                                  September 2006 at 112 post offices, stations, and




                                                    1
Fiscal Year 2006 Financial Installation Audit –                                                       FF-AR-07-094
 Post Offices, Stations, and Branches


                                   branches.1 The 112 units reported $464 million in revenue
                                   in FY 2005.

                                   We traced recorded financial transactions to and from
                                   supporting documentation and assessed the reliability of
                                   computerized data by verifying the computer records to
                                   source documents. We also evaluated whether the internal
                                   control structure over financial reporting and safeguarding of
                                   assets was implemented and functioning as designed.

                                   We conducted this audit from October 2005 through
                                   February 2007 in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as we considered necessary under the
                                   circumstances. We discussed our observations and
                                   conclusions with management officials and included their
                                   comments where appropriate. We issued individual reports
                                   to management at each site.

    Prior Audit Coverage           Prior to FY 2001, the Postal Inspection Service conducted
                                   financial installation audits. We evaluated all findings
                                   reported by the Postal Inspection Service in individual site
                                   reports from FY 2000 and by the OIG from FYs 2001
                                   through 2005 and reported the status of recommendations
                                   in these reports.

                                   In addition, the OIG issued Management Advisory – Fiscal
                                   Years 2003 and 2004 Protective Reviews Capping Report
                                   (Report Number FT-MA-04-003, August 12, 2004). The
                                   review of 117 sites found personnel could strengthen
                                   controls over asset and postmaster accountability, revenue
                                   protection and expense minimization, employee and
                                   customer service, information systems security, and
                                   oversight by following established policies and procedures.
                                   Management agreed with the OIG recommendations and
                                   has taken or plans to take corrective actions that are
                                   responsive to the recommendations.




1
  Appendix A contains a listing of the 112 selected post offices. We used a statistical methodology to select 108
locations. Appendix C contains an explanation of the statistical selection methodology. We judgmentally selected
four locations: xxxxxxxxx Post Office, xxxxxxxxx, Massachusetts; xxxxxxxxx Station, xxxxxxxx, California;
xxxxxxxxxxxxxx Post, xxxxxxxxx, Colorado; and the Processing and Distribution Center Window Unit,
xxxxxxxxxxxxxxxx, California.




                                                         2
Fiscal Year 2006 Financial Installation Audit –                                                   FF-AR-07-094
 Post Offices, Stations, and Branches


                                          AUDIT RESULTS
                                  Based on the items we reviewed at the 112 post offices,
                                  stations, and branches, financial transactions were
                                  reasonably and fairly presented in the accounting records
                                  and, generally, the internal controls we examined were in
                                  place and effective at the units reviewed. However, we
                                  identified five locations where controls, overall, were not
                                  effective. Also, we identified an additional eight locations
                                  where major segments of post office internal controls were
                                  not effective. (See Appendix E.) Further, we identified
                                  various internal control and compliance issues at 104 of the
                                  112 post offices audited. Appendix B presents a listing of
                                  each issue reported and the number of locations in which
                                  the issue occurred. This report contains a discussion of the
                                  most frequent findings we identified during our audits.
                                  These findings were in the areas of stamp and cash
                                  accountability, money orders, safeguarding of assets,
                                  excess stock, employee items, and master trust accounts.

                                  We have included in this report an issue regarding master
                                  trust accounts. We found that policies regarding the
                                  reconciliation of these accounts were not complete.

    Increased                     Units did not always comply with internal control procedures
    Compliance is                 for stamps, cash, and money orders. Specifically, units did
    Needed With                   not follow procedures related to accountability
    Procedures for                examinations, xxxxxxxxxxxxxxxxxxxx, xxxxxxxxxxxxxxxxx,
    Stamps, Cash, and             safeguarding of assets, and retail floor stock. These
    Money Orders                  internal control weaknesses may have contributed to cash
                                  and stamp shortages totaling $208,890 and overages
                                  totaling $151,253. (See Appendix D.)

    Accountability                Units did not conduct timely examinations of
    Examinations                  accountabilities.2 The primary cause was time constraints.
                                  If managers do not examine accountabilities in a timely
                                  manner, they reduce their ability to detect, trace, and
                                  recover shortages. Specifically, we reported management:




2
  Handbook F-1, Post Office Accounting Procedures, Chapter 4, November 1996 (updated with Postal Bulletin
revisions through June 9, 2005).




                                                       3
Fiscal Year 2006 Financial Installation Audit –                                                           FF-AR-07-094
 Post Offices, Stations, and Branches


                                         •    Did not count cash retained accountabilities at the
                                              required frequencies at 73 units.3

                                         •    Did not count the unit cash retained reserve
                                              accountability at the required frequencies at 41 units.

    xxxxxxxxxxxxxxxxxxxx            Employees at 38 units did not xxxxxxxxxxxxxxxxxxxxxx.
                                    The primary cause was managers and employees were
                                    unaware of or did not fully understand all internal control
                                    requirements. When management does not
                                    xxxxxxxxxxxxxxxxxxxx, the Postal Service has an increased
                                    risk xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

    xxxxxxxxxxxxxxxxx               Units did not properly implement the xxxxxxxxxxxxxxxx
                                    Program.4 The primary cause was managers and
                                    employees were unaware of or did not fully understand all
                                    internal control requirements. If management does not
                                    implement the program, there is an increased risk the Postal
                                    Service may not be able xxxxxxxxxxxxxxxxx. Specifically,
                                    we reported that employees:

                                         •    Did not issue xxxxxxxxxxxxxxxxx or maintain
                                              xxxxxxxxxxxxxxxxxxxxxxxxx at 62 units.

                                         •    Did not properly maintain the xxxxxxxxxxxxxxxx
                                              xxxxxxxxxxx at 45 units.

    Safeguarding of Assets          Units did not always comply with procedures for
                                    safeguarding assets.5 This primarily occurred because
                                    there was not always sufficient management oversight and
                                    managers were not always aware of or did not fully
                                    understand the requirements. If managers do not secure
                                    accountabilities, they increase the Postal Service’s risk that
                                    stamps, cash, or accountable paper could be stolen.
                                    Specifically, employees or supervisors:

                                         •    Did not properly prepare or use Postal Service (PS)
                                              Form 3977, Duplicate Key Envelope, at 49 units.



3
  The Postal Service plans to publish a Postal Bulletin article eliminating the requirement to count cash credits at
Segmented Inventory Accountability offices at least once every 2 weeks. Instead, postmasters, managers, and
supervisors will perform counts no less frequently than once a month.
4
  Management Instruction AS-220-1999-1, xxxxxxxxxxxxxxxxxxxxxxxx.
5
  Handbook F-1, Chapter 4.




                                                            4
Fiscal Year 2006 Financial Installation Audit –                                                       FF-AR-07-094
 Post Offices, Stations, and Branches



                                        •   Did not conduct annual key reviews at 44 units.

                                        •   Did not properly prepare bank deposits at 40 units.

    Excess Stock                   Units did not always comply with retail floor stock limits.
                                   Specifically, 51 units exceeded the 2-week postage sales
                                   limit. The primary cause was managers knowingly
                                   exceeded the stock limit.6 When units exceed authorized
                                   stock limits, the Postal Service has an increased risk that
                                   stamps could be lost or stolen without detection.

    Employee Items and             Units did not always comply with procedures for monitoring
    Master Trust                   employee items and master trust accounts. The Postal
    Accounts Needed                Service has an increased risk that units will misstate assets
    Additional Monitoring          and liabilities when they do not monitor these accounts.
                                   Specifically, employees or supervisors did not:

                                        •   Monitor or promptly clear employee items at 39 units.
                                            The units did not transfer $35,479 in outstanding
                                            employee overages to a revenue account. In
                                            addition, the units did not clear $161,227 in
                                            outstanding employee receivables.7 The primary
                                            cause was managers were unaware of or did not fully
                                            understand all requirements.

                                        •   Reconcile master trust accounts maintained at
                                            29 units to the balances in the Accounting Data Mart
                                            (ADM).8 We found differences of $1,031,321
                                            between unit maintained records and the ADM.
                                            Primarily, this condition occurred because of
                                            insufficient management oversight. Additionally,
                                            Postal Service policy does not require
                                            non-PostalOne! offices to reconcile these accounts.

    Audit Comment                  We addressed the issues related to stamps, cash, money
                                   orders, and employee items in individual unit level reports to
                                   district management. We did not identify any corrective
                                   actions required by U.S. Postal Service Headquarters
                                   regarding these issues. Consequently, we are not making

6
  Handbook F-1, Chapter 4.
7
  Handbook F-1, Chapter 5.
8
  PostalOne! Reconciliation Instructions for Balancing with SAFR (Standard Accounting For Retail), Reconciliation
Process (February 2005).




                                                         5
Fiscal Year 2006 Financial Installation Audit –                                       FF-AR-07-094
 Post Offices, Stations, and Branches


                                      additional recommendations related to those items in
                                      this report.

 Recommendation                   We recommend the Vice President, Controller, in
                                  conjunction with the Vice President, Customer Service:

                                  1. Modify Postal Service policy to establish a requirement
                                     to reconcile master trust accounts to the balances in the
                                     Accounting Data Mart at non-PostalOne! offices.

 Management’s                     Management agreed with the recommendation and stated
 Comments                         they will clarify the customer trust accounts reconciliation
                                  policy to indicate that post offices (PostalOne! and non-
                                  PostalOne!) are required to reconcile trust accounts
                                  balances from the PostalOne! System or manually maintain
                                  records with the balances in the ADM. The policy, which
                                  includes frequency of the reconciliation, will be incorporated
                                  in the new Field Accounting Procedures scheduled for
                                  publication in FY 2007.

 Evaluation of                    Management’s comments are responsive to the
 Management’s                     recommendation. Management’s actions taken or planned
 Comments                         should correct the issues identified in the findings.




                                                   6
Fiscal Year 2006 Financial Installation Audit –                                         FF-AR-07-094
 Post Offices, Stations, and Branches


APPENDIX A. POST OFFICES, STATIONS, AND BRANCHES AUDITED
             AND REPORTS ISSUED NATIONWIDE
                                                                       FY 2005        OIG Report
                     Unit Name                        Location        Revenue          Number
     1    xxxxxxxxxx Post Office              xxxxxx CA               $1,816,951   FF-AR-07-003
     2    xxxxxxxxxxxxxxStation               xxxxxxx, TX             $1,780,527   FF-AR-06-201
     3    xxxxxxxxx Post Office               xxxxxxxxx, MI           $4,398,056   FF-AR-06-260
     4    xxxxxxxx Post Office                xxxxxxxx, OH              $394,685   FF-AR-06-077
                               9              xxxxxxxxx, MA           $1,138,338   FF-AR-07-021
     5    xxxxxxxxx Post Office
     6    xxxxxx Post Office                  xxxxxx, MO                $464,606   FF-AR-06-224
     7    xxxxxxxxxxxxxx Office Window        xxxxxxxxx, MD          $14,658,866   FF-AR-06-045
     8    xxxxxxxxxxxxxxxxx Post Office       xxxxxxxxxxxx, MI        $2,819,378   FF-AR-06-270
     9    xxxxxxxx Station                    xxxxxxx, TX             $1,649,039   FF-AR-06-209
                            9                 xxxxxxxxxxCA            $1,541,937   FF-AR-06-228
    10    xxxxxxxxx Station
    11    xxxxxxxxxxxxxxxxxxxx Station        xxxxxxxxx, PA             $454,362   FF-AR-06-166
    12    xxxxxxxx Post Office                xxxxxxxx, WI              $280,264   FF-AR-06-262
    13    xxxxxxx Post Office                 xxxxxxx, MO             $1,505,493   FF-AR-06-046
          xxxxxxxxxxxxxxxxx Finance           xxxxxxxx, NY            $1,531,565   FF-AR-06-075
    14    Station
    15    xxxxxxxxxx Post Office              xxxxxxxxxx, TX           $239,832    FF-AR-07-005
    16    xxxxxxxxxx Post Office              xxxxxxxxxx, CO          $1,940,941   FF-AR-06-183
    17    xxxxxxxxxxxxxxx Postal Store        xxxxxxx, IL            $20,620,861   FF-AR-06-250
    18    xxxxxxx Post Office                 xxxxxxx, OR              $241,103    FF-AR-06-204
    19    xxxxxx Post Office                  xxxxxx, IL               $166,777    FF-AR-06-024
          xxxxxxxxxxxxxxxx P&DC Window        xxxxxxxxxxxxxxxx, CA    $4,071,980   FF-AR-07-016
              9
    20    Unit
    21    xxxxxxxxxxxxx Post Office           xxxxxxxx, TX            $1,551,390   FF-AR-06-168
    22    xxxxxxxx Station                    xxxxxxx, TX             $2,467,573   FF-AR-07-024
    23    xxxxxxxxxxxxxxxxxxxxxxx Station     xxxxxxxxxxxxxx, TX      $1,477,579   FF-AR-07-007
    24    xxxxxxxxxxx Post Office             xxxxxx, TX             $25,358,725   FF-AR-06-205
    25    xxxxx Post Office                   xxxxx, FL               $1,285,929   FF-AR-06-154
    26    xxxxxxxx Station                    xxxxxxxxxxxxxx, CA        $930,688   FF-AR-06-065
    27    xxxxxxxxxxxxxxx Station             xxxxxx, CO             $16,861,759   FF-AR-06-186
    28    xxxxxx General Mail Facility        xxxxxx, CO             $15,972,204   FF-AR-07-001
    29    xxxxxxxxxxx Branch                  xxxxxxxxxxx, CA         $2,061,465   FF-AR-06-111
    30    xxxxxxxx Station                    xxxxxxxxx, AZ           $1,468,507   FF-AR-06-132
    31    xxxxxxxxxxx Post Office             xxxxxx, MN              $7,134,943   FF-AR-07-002
    32    xxxxx xxxxxxx Post Office           xxxxxxxxxxx, IL        $23,544,308   FF-AR-06-180
                                      9       xxxxxxxxx, CO           $1,518,933   FF-AR-06-020
    33    xxxxxxxxxxxxxx Post Office
    34    xxxxxxxx Station                    xxxxxxxxxxxxxxxx, CA      $800,237   FF-AR-06-064
    35    xxxxxxxxxxxxxxxx Post Office        xxxxxxxxxxx, NY        $15,667,964   FF-AR-06-235
    36    xxxxxxxxxxxxxxxxx Office Window     xxxxxxxxxxxx, NC        $1,517,805   FF-AR-06-125
    37    xxxxxxxxxxxxxx Branch               xxxxxxxxxxx, FL         $1,403,354   FF-AR-06-179
    38    xxxxxxxx Post Office                xxxxxxxx, MT              $620,418   FF-AR-06-187
    39    xxxxxx Post Office                  xxxxxxx CT               $241,875    FF-AR-06-088
    40    xxxxxxxxxxxxxx Station              xxxxxx, IL              $1,580,853   FF-AR-06-133
    41    xxxxxxxxxxxxxxxxx Branch            xxxxxxxxx, CO           $6,439,965   FF-AR-06-108
    42    xxxx Post Office                    xxxx, AL                  $188,935   FF-AR-06-023

9
    We judgmentally selected this location.




                                                     7
Fiscal Year 2006 Financial Installation Audit –                                       FF-AR-07-094
 Post Offices, Stations, and Branches


                                                                     FY 2005        OIG Report
                  Unit Name                          Location       Revenue          Number
 43    xxxxxxxxxx Post Office                 xxxxxxxxxx, AL          $865,425   FF-AR-06-025
 44    xxxxxxxxxxxxxxxxxx Branch              Xxxxxxxx, OH          $2,384,529   FF-AR-06-245
 45    xxxxxxxx Post Office                   Xxxxxxxx, ME            $186,344   FF-AR-06-232
 46    xxxxxxxxxxxxx Post Office              Xxxxxxxx, CT         $21,749,800   FF-AR-06-230
 47    xxxxxxxx Post Office                   Xxxxxxxx, OH          $2,205,017   FF-AR-06-239
 48    xxxxxx Post Office                     Xxxxxx, MI            $2,162,055   FF-AR-06-278
 49    xxxxxxxxxxxxx Post Office              Xxxxxxxxxxxxx, PA       $174,108   FF-AR-06-249
 50    xxxxxxxxxxxxxxx Station                Xxxxxxxxxx, AL        $1,156,587   FF-AR-06-164
 51    xxxxxxxxx Post Office                  Xxxxxxxxx, NY           $905,540   FF-AR-06-257
 52    xxxxxxx Post Office                    Xxxxxxx, OH             $154,504   FF-AR-06-079
 53    xxxxxxxxxxx Post Office                Xxxxxxxxxxx, IL       $3,761,390   FF-AR-06-131
 54    xxxxxxxxx Post Office                  Xxxxxxxxx, MN         $1,476,244   FF-AR-07-008
 55    xxxxxxx Post Office                    Xxxxxxx, PA             $580,111   FF-AR-06-054
 56    xxxxxxxxxxx Station                    Xxxxxxxxx, CA         $1,953,843   FF-AR-06-252
 57    xxxxxxxxxxxxxxxx Post Office           Xxxxxxxxxxx, AR       $2,165,684   FF-AR-06-244
 58    xxxxxxxxxxxxxxxx Branch                Xxxxxxxxx, NY         $1,631,697   FF-AR-06-124
 59    xxxxxxxxxxxxxx Post Office             Xxxxxxxxx, CA         $2,214,704   FF-AR-06-136
 60    xxxxxxxxxxx Post Office                xxxxxxxxxxx, OH         $577,407   FF-AR-06-047
 61    xxxxxxxxxx Post Office                 Xxxxxx, TX            $4,588,900   FF-AR-06-097
 62    xxxxxx Post Office                     Xxxxxx, ND              $989,532   FF-AR-06-241
 63    xxxxxxxxxxxxx Post Office              Xxxxxxxx, NJ          $1,583,964   FF-AR-06-109
 64    xxxxxx Post Office                     Xxxxxx, NC              $272,285   FF-AR-06-194
 65    xxxxxxxxxxxx Station                   Xxxxxxxxxx, AL        $2,181,710   FF-AR-06-169
 66    xxxxxxxxxx Post Office                 Xxxxxxxxxx, PA          $256,557   FF-AR-06-263
 67    xxxxxxxxxxxxxxxxxx Post Office         Xxxxxxxxxxxxx, NY     $1,227,211   FF-AR-06-265
 68    xxxxxxxxx Post Office                  Xxxxxxxxx, WI         $2,442,997   FF-AR-06-177
 69    xxxxxxxxxxx Office Window              Xxxxxxxxx, CA        $25,837,060   FF-AR-06-100
 70    xxxxxxxxxxxxx Post Office              Xxxxxxxx, CA          $2,541,913   FF-AR-06-089
 71    xxxxxxxx Finance Station               Xxxxxxxx, HI          $1,574,036   FF-AR-06-261
 72    xxxxxxxxx Station                      Xxxxxx, CO            $1,475,208   FF-AR-06-264
 73    xxxxxxx Station                        Xxxxxxxx, NY            $933,440   FF-AR-06-185
 74    xxxxxxxxxxxxx Post Office              Xxxxxxxx, NY         $29,820,052   FF-AR-07-010
 75    xxxxxxxxxxx Post Office                Xxxxxx, DE            $3,105,922   FF-AR-07-013
 76    xxxxxxxxx Post Office                  Xxxxxxxxx, IL         $3,317,190   FF-AR-06-280
 77    xxxxxxxxxxxx Office                    Xxxxxxx, CA          $18,008,799   FF-AR-06-200
 78    xxxxxxx Post Office                    Xxxxxxx, NV             $255,403   FF-AR-06-259
 79    xxxxxxxxxxxxxxx Station                Xxxxx, NY               $700,097   FF-AR-06-145
 80    xxxxxxxxxxxxxx Post Office             Xxxxxxxxx, CA           $700,719   FF-AR-06-152
 81    xxxxxxxxxxxxxx Post Office             Xxxxxxxxx, CA         $5,187,938   FF-AR-06-220
 82    xxxxxxxxxxxx Post Office               Xxxxxxxxxxxx, PA        $162,870   FF-AR-06-273
 83    xxxxxxxxxx Post Office                 Xxxxxxx, TX           $1,926,749   FF-AR-06-215
 84    xxxxxxxxx Post Office                  Xxxxxxxxx, MI         $4,195,273   FF-AR-06-138
 85    xxxxxxxxxxxx Post Office               Xxxxxxx, NM             $648,641   FF-AR-06-274
 86    xxxxxxxxxxxxxxxxxxx Post Office        Xxxxxxxxxxxxxx, UT   $25,514,665   FF-AR-06-066
 87    xxxxxxxxxxx General Mail Facility      Xxxxxxxxxxx, TX      $13,226,204   FF-AR-06-103
 88    xxxxxxxxx P&DC Window Unit             Xxxxxxxxx, CA        $20,279,155   FF-AR-06-148
 89    xxxxxxxxxxxxxxxx Post Office           Xxxxxxxxxxx, NY       $1,710,023   FF-AR-06-149
 90    xxxxxxxxxxxxxxxx Post Office           Xxxxxxxxxxx, CA         $447,831   FF-AR-06-237
 91    xxxxxxxxxxxx Post Office               Xxxxxxx, OK           $1,207,322   FF-AR-06-271
 92    xxxxxxxxxxxxx Branch                   Xxxxxx FL             $2,735,199   FF-AR-06-068




                                                     8
Fiscal Year 2006 Financial Installation Audit –                                        FF-AR-07-094
 Post Offices, Stations, and Branches


                                                                      FY 2005        OIG Report
                  Unit Name                           Location       Revenue          Number
 93    xxxxxxxxxxxxx Station                  xxxxxxx, IN              $516,511   FF-AR-06-092
 94    xxxxxxxxxxxxxxx Post Office            xxxxxxxxxxxxxxx, MA      $606,744   FF-AR-06-051
 95    xxxxxxxxx Post Office                  xxxxxxxxx, MA            $626,950   FF-AR-06-049
 96    xxxxxxxxxxx Post Office                xxxxxxxxxxx, PA          $445,020   FF-AR-06-226
 97    xxxxxxxxxxxxx Station                  xxxxxxxxxx, PA         $1,740,618   FF-AR-06-213
 98    xxxxxxxxxxx Post Office                xxxxxxxxxxx, IL          $656,344   FF-AR-06-055
 99    xxxxxxxxxxxxxxx Station                xxxxx, FL                $833,010   FF-AR-06-106
100    xxxxxxxxxxxxxxxxx Window Unit          xxxxx, FL             $27,367,134   FF-AR-06-211
101    xxxxxxxxx Post Office                  xxxxxxxxx, IN            $622,894   FF-AR-06-227
102    xxxxxxxxxxx Postal Store               xxxxxxxxx, CA          $1,880,940   FF-AR-06-272
103    xxxxxx Branch                          xxxxxxxx, OR           $2,927,885   FF-AR-06-243
104    xxxxx Post Office                      xxxxx, GA                $397,443   FF-AR-06-028
105    xxxxxxxxxxx Post Office                xxxxxxxxxxx, PA          $184,057   FF-AR-06-269
106    xxxxxxxxxxxx Post Office               xxxxxxx, CA            $2,419,665   FF-AR-06-174
107    xxxxxxxxx Post Office                  xxxxxxxxx, MI            $559,679   FF-AR-07-009
108    xxxxxxxxx Post Office                  xxxxxxxxx, NC            $662,724   FF-AR-06-116
109    xxxxxxxxx Post Office                  xxxxxxxxx, WI          $2,184,051   FF-AR-06-044
110    xxxxxxxx Station                       xxxxxxxxxx, LA         $1,604,310   FF-AR-06-277
111    xxxxxxxx Post Office                   xxxxxxxx, ME             $366,289   FF-AR-06-254
112    xxxxxxxxx Post Office                  xxxxxxxxx, AR            $227,709   FF-AR-06-033




                                                     9
Fiscal Year 2006 Financial Installation Audit –                                                           FF-AR-07-094
 Post Offices, Stations, and Branches


             APPENDIX B. FINDINGS REPORTED FOR THE
     108 STATISTICALLY SELECTED POST OFFICES, STATIONS, AND
                 BRANCHES AUDITED NATIONWIDE10
                                                                                                             Number of
                                                                                                             Sites With
                                  Finding Description                                                         Findings
The unit did not conduct timely examinations of cash retained accountabilities.                                   73
The unit reserve custodian did not properly issue or maintain xxxxxxxxxxxxxxxxx.                                  62
The unit allowed retail floor stock to exceed the 2-week postage sales limit.                                     51
The unit did not properly maintain duplicate key envelopes and lists.                                             49
The unit did not properly maintain or secure the xxxxxxxxxxxxxxxxxxxxxxxxxxxx.                                    45
The unit did not verify or document, at least annually, that an employee's                                        44
accountability keys did not open another's accountability.
The unit did not conduct timely examinations of cash reserve accountabilities.                                    41
The unit did not properly prepare bank deposits.                                                                  40
The unit did not monitor employee items or promptly clear them.                                                   39
The unit did not xxxxxxxxxxxxxxxxxxxxxxxxxxxx.                                                                    38
The unit did not document credit examination results on Postal Service (PS) Form                                  35
3294, Cash and Stamp Stock Count and Summary, or retain the forms.
The unit did not properly secure cash, stamps, money order stock, and accountable                                 35
items.
The unit did not close inactive credits.                                                                          33
The unit did not document credit examination results on PS Form 3368, Stamp                                       30
Credit Examination Record.
The unit did not properly document, execute, or record internal stock transfers.                                  30
The unit did not place xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx during nonbusiness                                   29
hours.
The unit did not monitor and resolve financial differences.                                                       29
The unit did not monitor or reconcile master trust account balances.                                              29
The unit did not properly monitor advance deposit accounts for inactivity.                                        29
The unit did not have adequate documentation to support payroll transactions.                                     27
The unit did not conduct timely examinations of vending accountabilities.                                         24
The unit did not conduct timely examinations of unit reserve stamp accountabilities.                              22
The unit did not update the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx list.                                   21
The unit did not monitor post office box overflow.                                                                20
The total office accountability exceeded the 3-month stamp stock limit.                                           18
The unit did not verify disbursement transactions were supported.                                                 17
The unit did not use PS Form 3369, Consigned Credit Receipt, when assigning                                       15
accountabilities.
The unit did not properly secure retail floor stock.                                                              14
The unit allowed the cash reserve to exceed the authorized limit.                                                 14

10
  We did not include judgmentally selected locations in order to allow us to statistically project the number of units
having internal control deficiencies.




                                                           10
Fiscal Year 2006 Financial Installation Audit –                                      FF-AR-07-094
 Post Offices, Stations, and Branches

                                                                                         Number of
                                                                                         Sites With
                                  Finding Description                                     Findings
The unit did not follow proper vending procedures.                                          13
The unit did not properly operate the postage validation imprinter or make adjusting        13
entries.
The unit did not ensure the credit cardholder reviewed, signed and dated, and               13
forwarded the International Merchant Purchase Authorization Card (IMPAC)
statements to the credit card approving official within 5 working days.
The unit did not properly follow closeout procedures.                                       12
The unit did not did not ensure Voyager transactions were supported with receipts.          12
The unit did not verify that locks and combinations were changed.                           11
The unit did not always post overages and shortages.                                        11
The unit did not properly close or block post office boxes of customers who did not         11
pay their fees.
The IMPAC credit card approving official did not review documentation for accuracy          11
and proper use of the credit card, and sign within 5 working days of receiving the
report.
The unit did not prevent sales associates from exceeding the authorized cash                10
retained limit.
The unit did not conduct timely examinations of retail floor stock accountabilities.         9
The unit did not limit employees' access to the unit cash reserve.                           9
The unit did not ensure business reply mail revenue was collected.                           9
The unit did not keep the Web Box Activity Tracking System (WebBATS) up-to-date.             9
The unit did not adequately separate post office box duties.                                 9
The unit did not properly document, execute, or record external stock transfers.             8
The unit did not restrict access to Postal Service information resources to authorized       8
employees.
The unit did not witness and sign accountability examinations, as required.                  6
Unit management did not ensure that contract station accountability did not exceed           6
the bond limit.
The unit did not adequately separate duties.                                                 6
The unit did not remit all funds.                                                            6
The unit did not secure the xxxxxxxxxxxxxxxxxxxxxxx.                                         6
The unit did not audit money orders during accountability examinations.                      5
Unit management did not monitor contract postal unit procedures.                             5
The unit did not conduct or document money order examinations.                               4
The unit did not prevent employees from storing personal funds with Postal Service           4
funds.
The unit did not accurately record post office box and caller service transactions.          4
The unit did not reconcile monthly Voyager purchases.                                        4
The unit did not properly assign Voyager PINs.                                               4
The unit did not ensure IMPAC transactions were supported with receipts.                     4
The unit did not conduct timely examinations of individual stamp credits.                    3
The unit sold money orders out of sequence.                                                  3




                                                  11
Fiscal Year 2006 Financial Installation Audit –                                          FF-AR-07-094
 Post Offices, Stations, and Branches

                                                                                           Number of
                                                                                           Sites With
                                  Finding Description                                       Findings
The unit did not follow proper consignment procedures.                                         3
The unit did not use an approved payment method to disburse Postal Service funds.              3
The unit did not collect caller service fees from customers with caller service.               3
The unit did not conduct timely examinations of mobile and rural carrier                       2
accountabilities.
The unit allowed the philatelic credit to exceed the maximum philatelic stock level of         2
$125,000.
The unit did not keep automated postal center stamp stock in a storage repository              2
separate from other credits of the post office.
Unit management did not control the use of PS Forms 1096, Cash Receipt.                        2
The unit permitted customers to mail or receive returned pieces without maintaining            2
a sufficient advance deposit account balance.
The unit did not process postage refunds and exchanges properly.                               2
The unit did not record all financial transactions.                                            2
The unit did not remove obsolete items from inventory.                                         1
The vending technician did not maintain individual sub-accounts for each vending               1
machine and for the stamp stock and cash kept in the safe.
The unit allowed multiple employees to share a stamp credit.                                   1
The unit did not prevent employees from storing personal belongings in retail work             1
areas.
The unit did not properly record receipts or disbursement accounts.                            1
The unit did not follow administrative procedures related to post office boxes.                1
The unit did not accurately record payroll transactions.                                       1
The IMPAC cardholder did not obtain authorization for a purchase or purchased a                1
prohibited item.
The unit did not destroy the IMPAC credit card when the cardholder transferred.                1
The unit did not secure Voyager cards.                                                         1
The unit did not secure IMPAC.                                                                 1




                                                  12
Fiscal Year 2006 Financial Installation Audit –                                 FF-AR-07-094
 Post Offices, Stations, and Branches



                     APPENDIX C. SAMPLING METHODOLOGY
In support of the objectives, the audit team employed a stratified random sample of post
offices, stations, and branches (units). The sample design allows statistical projection
of the number of units having the types of internal control deficiencies that were the
subject of the audit. We made separate projections for each category with internal
control deficiencies. The audit universe consisted of 16,025 units with revenues above
$100,000.

We sampled 108 units as a stratified attributes design further allocated to each of
three revenue-based strata. The sample size of 108 is equivalent to that required to
achieve a 5 percent risk of over-reliance (Beta Risk) and a tolerable error rate of
5 percent allowing for one error for compliance testing.

We calculated the point estimate of the total number of deviations, as well as the
associated confidence interval. Based on the sample results, we project the following
with a 95 confidence level:

                                                           Statistical Projections
                                                        Lower       Upper        Point
                      Finding                           Limit        Limit      Estimate
 The unit did not conduct timely examinations of           10,367      13,681         12,024
 cash retained accountabilities.                         (64.69%)    (85.37%)       (75.03%)
                                                            6,931      10,742          8,837
 The unit did not issue xxxxxxxxxxxxxxxxx.               (43.25%)    (67.04%)       (55.14%)
                                                            4,686       8,398          6,542
 Units did not comply with retail floor stock limits.    (29.24%)     (52.4%)       (40.82%)
 The unit did not properly maintain duplicate key           5,588       9,404          7,496
 envelopes and lists.                                    (34.87%)    (58.68%)       (46.78%)
 The unit did not properly maintain or secure the           4,803       8,552          6,677
 xxxxxxxxxxxxxxxxxxxxxxxxxxxx.                           (29.97%)    (53.36%)       (41.67%)
 The unit did not verify or document, at least
 annually, that an employee’s accountability keys           5,467       9,287          7,377
 did not open another’s accountability.                  (34.12%)    (57.95%)       (46.04%)
 The unit did not conduct timely examinations of            4,295       7,965          6,130
 cash reserve accountabilities.                          (26.80%)    (49.70%)       (38.25%)
                                                            4,736       8,509          6,623
 The unit did not properly prepare bank deposits.        (29.55%)    (53.10%)       (41.33%)
 The unit did not monitor employee items or                 2,685       5,935          4,310
 properly clear them.                                    (16.75%)    (37.03%)       (26.89%)
                                                            3,848       7,510          5,679
 The unit did not xxxxxxxxxxxxxxxxxxxxxxxxxxxx.           (24.1%)    (46.87%)       (35.44%)




                                                  13
Fiscal Year 2006 Financial Installation Audit –                                      FF-AR-07-094
 Post Offices, Stations, and Branches



APPENDIX D. SUMMARY OF ACCOUNTABILITY EXAMINATIONS FOR
  THE 108 STATISTICALLY SELECTED POST OFFICES, STATIONS,
            AND BRANCHES AUDITED NATIONWIDE

Accountability Number                                    Shortages            Overages
     Type      Examined              Total Value     Amount Percentage    Amount Percentage
Retail
Associates’
                   1,183                 $160,640         $1,998   1.24     $7,367            4.59
Cash Retained
Credits
Unit Cash
                     143                  112,422          1,202   1.07      5,181            4.61
Reserve
Unit Reserve
                             110      30,924,429      132,446      0.43     12,501            0.04
Stock
Retail Floor
                             102        7,928,395         40,632   0.51    110,176            1.39
Stock
Vending
                              80        1,016,855         17,211   1.69      3,592            0.35
Credits
Individual
                              32        2,304,138         14,328   0.62     11,534            0.50
Stamp Credits
Rural Carrier
                              30             3,464          127    3.67       345             9.96
Stamp Credits

Mobile Units                  11          128,739           907    0.70       170             0.13

Stamps by Mail
                               4          276,803            39    0.01       387             0.14
Credits
Totals                    1,695      $42,855,885     $208,890      0.49   $151,253            0.35




                                                     14
Fiscal Year 2006 Financial Installation Audit –                                                                                                                    FF-AR-07-094
 Post Offices, Stations, and Branches



  APPENDIX E. SITES WHERE INTERNAL CONTROLS WERE NOT IN
                    PLACE AND EFFECTIVE




                                                                            Stamp, Cash, and Money Order




                                                                                                                                                                                       Voyager (eFleet) and IMPAC
                                                                                                                                      Post Office Box and Caller
                                                                                                           Financial Accounting and
                                                                               Accountability Controls


                                                                                                              Reporting Controls


                                                                                                                                          Services Controls
                                                         Overall Controls




                                                                                                                                                                    Payroll Controls



                                                                                                                                                                                                Controls
        Unit Name                        Location
xxxxxxxxxx Post Office           xxxxx, CA                                         X

xxxxxxxxxxxxx Station            xxxxxxx, TX             X                         X                             X                           X                      X                         X

xxxxxxxxx Post Office            xxxxxxxxx, MI                                                                   X

xxxxxxxxxxxxxxxx Station         xxxxxxxx, NY            X                         X                             X                           X

xxxxxxxx Station                 xxxxxxx, TX             X                         X                             X                           X                                                X

xxxxxxxx Station                 xxxxxxxxxxxxxxxx, CA                              X

xxxxxxxxxxxxxx Station           xxxxxxx, IL             X                         X                             X                           X                      X                         X

xxxxxxxxxxx Post Office          xxxxxx, TX                                        X

xxxxxxxxx Station                xxxxxx, CO                                        X
xxxxxxxxxxxxxx Post
                                 xxxxxxxxx, CA           X                         X                             X
Office
xxxxxxxxxxxx Post Office         xxxxxxx, OK                                                                     X

xxxxxxxxxxxxx Station            xxxxxxxxxx, PA                                    X

xxxxxxxxxxx Postal Store         xxxxxxxxx, CA                                     X                             X

                          Totals                         5                      11                                8                          4                      2                         3




                                                    15
Fiscal Year 2006 Financial Installation Audit –         FF-AR-07-094
 Post Offices, Stations, and Branches



                    APPENDIX F. MANAGEMENT’S COMMENTS




                                                  16
Fiscal Year 2006 Financial Installation Audit –        FF-AR-07-094
 Post Offices, Stations, and Branches




                                                  17
